<html>
<title> - YOUTH VIOLENCE: TRENDS, MYTHS, AND SOLUTIONS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                    YOUTH VIOLENCE: TRENDS, MYTHS, 
                             AND SOLUTIONS

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 11, 2009

                               __________

                           Serial No. 111-15

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
47-315                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            DARRELL E. ISSA, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
ROBERT WEXLER, Florida               STEVE KING, Iowa
STEVE COHEN, Tennessee               TRENT FRANKS, Arizona
HENRY C. ``HANK'' JOHNSON, Jr.,      LOUIE GOHMERT, Texas
  Georgia                            JIM JORDAN, Ohio
PEDRO PIERLUISI, Puerto Rico         TED POE, Texas
LUIS V. GUTIERREZ, Illinois          JASON CHAFFETZ, Utah
BRAD SHERMAN, California             TOM ROONEY, Florida
TAMMY BALDWIN, Wisconsin             GREGG HARPER, Mississippi
CHARLES A. GONZALEZ, Texas
ANTHONY D. WEINER, New York
ADAM B. SCHIFF, California
LINDA T. SANCHEZ, California
DEBBIE WASSERMAN SCHULTZ, Florida
DANIEL MAFFEI, New York
[Vacant]

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

PEDRO PIERLUISI, Puerto Rico         LOUIE GOHMERT, Texas
JERROLD NADLER, New York             TED POE, Texas
ZOE LOFGREN, California              J. RANDY FORBES, Virginia
SHEILA JACKSON LEE, Texas            TOM ROONEY, Florida
MAXINE WATERS, California            BOB GOODLATTE, Virginia
STEVE COHEN, Tennessee               DANIEL E. LUNGREN, California
ANTHONY D. WEINER, New York
DEBBIE WASSERMAN SCHULTZ, Florida

                      Bobby Vassar, Chief Counsel

                    Caroline Lynch, Minority Counsel


                            C O N T E N T S

                              ----------                              

                           FEBRUARY 11, 2009

                                                                   Page

                           OPENING STATEMENTS

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable Louie Gohmert, a Representative in Congress from 
  the State of Texas, and Ranking Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     3

                               WITNESSES

Ms. Dorothy Johnson-Speight, Founder, Mothers in Charge, 
  Philadelphia, PEA
  Oral Testimony.................................................     7
  Prepared Statement.............................................     8
Dr. Barry Krisberg, Ph.D., President, National Council on Crime 
  and Delinquency, Oakland, CA
  Oral Testimony.................................................    11
  Prepared Statement.............................................    14
Mr. Steve Trubow, Head of Olympic Behavior Labs, Port Angeles, WA
  Oral Testimony.................................................    31
  Prepared Statement.............................................    33
Mr. Irving Bradley, Jr., Police Director, Trenton, NJ
  Oral Testimony.................................................    70
  Prepared Statement.............................................    73
Mr. Robert L. Woodson, Founder and President, Center for 
  Neighborhood Enterprise, Washington, DC
  Oral Testimony.................................................    78
  Prepared Statement.............................................    81
Dr. Beverly Coleman-Miller, M.D., Unity Consultant, Senior 
  Medical Consultant, Health Education Network, Washington, DC
  Oral Testimony.................................................    92
  Talking Points.................................................    94

                                APPENDIX

Material Submitted for the Hearing Record........................   109


                    YOUTH VIOLENCE: TRENDS, MYTHS, 
                             AND SOLUTIONS

                              ----------                              


                      WEDNESDAY, FEBRUARY 11, 2009

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2 p.m., in 
room 2141, Rayburn House Office Building, the Hon. Robert C. 
``Bobby'' Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Scott, Jackson Lee, and Gohmert.
    Also Present: Representative Smith.
    Staff Present: Bobby Vassar, Najority Chief Counsel; Ameer 
Gopalani, Majority Counsel; Mario Dispenza, (Fellow) ATF 
Detailee; Karen Wilkinson, (Fellow) Federal Public Defense 
Office Detailee; Veronica Eligan, Majority Professional Staff 
Member; Kimani Little, Minority Counsel; and Kelsey Whitlock, 
Minority Staff Assistant.
    Mr. Scott. The Subcommittee will now come to order.
    Good afternoon. I am pleased to welcome you here today for 
the first hearing before the Subcommittee on Crime, Terrorism, 
and Homeland Security in the 111th Congress.
    I wish to congratulate my colleague Judge Gohmert for 
seeking and being elected to the position of Ranking Member of 
the Subcommittee.
    And we are getting called to votes right now.
    I would like to welcome all of the new Members to the 
Subcommittee who will be joining us, hopefully, as the hearing 
goes on.
    This hearing is a continuation of a series of hearings we 
began in the 110th Congress on what we need to do to 
effectively reduce youth crime and violence and gang 
membership. What we have found, as you will hear from our 
distinguished panel of witnesses today, is that the evidence is 
overwhelming that properly targeted, evidence-based crime 
prevention and intervention programs for at-risk youths will 
greatly reduce crime and save much more money than they cost 
and avoid criminal justice and social welfare expenditures that 
otherwise would be spent.
    One of the most comprehensive studies on the effectiveness 
of proper targeting of scientifically proven prevention and 
intervention programs for at-risk youths was conducted in the 
State of Pennsylvania. The State invested $60 million to 
conduct programs in 100 communities in urban, suburban, and 
rural areas and identified comparable areas without the 
programs in order to scientifically assess the results. The 
study revealed that crime and negative social incidents went 
down substantially in the test communities compared to the 
comparable communities and that the average costs and losses 
from crime and social welfare programs were reduced by an 
average of $5 for every dollar spent on prevention and 
intervention programs.
    In my home State of Virginia, Richmond city and Fairfax 
County, both saw similar reductions after the similar 
approaches in communities with substantial youth violence and 
gang problem.
    I will be reintroducing the ``Youth Prison Reduction 
Through Opportunities, Mentoring, Intervention, Support, and 
Education Act,'' or the ``Youth PROMISE Act,'' this week, which 
calls for an implementation of a similar approach in high-crime 
areas nationwide.
    Now, while we have to have adequate levels of law 
enforcement to respond to violent and other serious crime, law 
enforcement alone will not sufficiently reduce crime. Over the 
last 25 to 30 years, we have been on a law enforcement and 
incarceration binge, the likes of which the world has never 
seen.
    The United States now has the highest rate of incarceration 
of any nation on earth: over 700 persons incarcerated for every 
100,000; and the United States far exceeds the world average of 
about 100 per 100,000, and is the only country known to lock up 
over 1 percent of its adult population. Russia is the next 
closest, at about 600 per 100,000. Every other major country 
incarcerates at levels much below that, countries such as: 
Great Britain, at 146; Australia, 126; Canada, 107; France, 85; 
Mexico, 196; Japan, 62; India, 36; China, 118, all per 100,000; 
United States, 700 per 100,000.
    And the United States has some of the world's most severe 
punishments for crime, including juveniles. For over 2,400 
juveniles now certain serving sentences of life without parole 
for crimes committed while they were juveniles, all 2,400 are 
in the United States. Some were given their sentences as first-
time offenders under circumstances such as being a passenger in 
a car from which there was a drive-by shooting.
    Examples like this prove that we are already tough on 
crime. All States have provisions which allow, if not require, 
juveniles to be treated as adults for trial, sentencing, and 
incarceration. Most juveniles treated as adults are convicted 
for non-violent offenses. And, again, we are already locking up 
more people than anywhere on earth.
    Yet crime persists. While it is down from levels 
experienced over a decade ago, there are reports of serious 
crime in some areas, particularly among youth, despite the 
focus on our law enforcement.
    And the focus of all this tough-on-crime law enforcement 
falls disproportionately on minorities, particularly Blacks and 
Hispanics. Many studies have examined that, when compared to 
similarly situated White children, minority children are 
treated more harshly at every stage of juvenile and the 
criminal justice system. I am concerned that policies such as 
expanding the definition of ``gang'' and extending gang 
databases will only make the problem worse, with no impact on 
reducing crime.
    Without appropriate intervention, these children will be in 
what the Children's Defense Fund has described as a cradle-to-
prison pipeline, where minority children are born on a 
trajectory to prison. As the reams of evidence regarding 
evidence-based prevention and intervention programs show, it is 
entirely feasible to move children from a cradle-to-prison 
pipeline to cradle-to-college or cradle-to-jobs pipeline.
    Research and analysis shows, as well as common sense, that, 
no matter how tough we are on crime on the children we 
prosecute today, unless we are addressing the underlying 
reasons for their developing into serious criminals, nothing 
will change. The next crime wave will simply replace the ones 
we take out, and crime continues. So getting tough on crime may 
respond to crime, but it does not reduce the incidence of 
crime.
    All credible research and evidence shows that a continuum 
of programs for youth identified as being at risk will save 
much more money than they cost compared to not doing anything. 
The Pennsylvania study convincingly establishes that these 
programs are more effective when provided in the context of 
coordinated, collaborative local strategy involving law 
enforcement, education, social services, mental health, 
nonprofit, faith-based and business sectors working together 
with identified children at risk of involvement in the criminal 
justice system.
    In the face of all this evidence, it is curious that we 
have continued to rely on the so-called ``get tough'' approach. 
Today's hearing will focus on studies, one by Professor James 
Fox and his colleague at the Northeastern University, 
reflecting an increase in murder and other serious crime in 
some minority communities. The study challenges us to do more 
than the usual response of simply cracking down with law 
enforcement and draconian penalties.
    Our witnesses today will address this challenge. And it is 
my fervent hope that the testimony and evidence that this 
Subcommittee will receive today will refocus our attention from 
sound-byte policies to effective legislation. I am looking 
forward to my colleagues in adopting proven strategies to 
reduce crime.
    It is now my pleasure to recognize the esteemed Ranking 
Member of this Subcommittee, the gentleman from Texas, Judge 
Gohmert.
    Mr. Gohmert. Thank you, Chairman Scott.
    This is the first hearing of the Crime Subcommittee this 
Congress, obviously. I would like to welcome our newest Members 
to the Subcommittee. Judge Ted Poe of Texas will serve as 
distinguished deputy Ranking Member. Congressman Bob Goodlatte 
of Virginia, who is a senior Member of the full Judiciary 
Committee, joins the Subcommittee. And Congressman Tom Rooney 
of Florida will serve the Subcommittee and Congress with 
distinction, I know. I look forward to working with the three 
new Republicans and our new colleagues across the aisle, as 
well.
    And although some of our colleagues on other Subcommittees 
may not admit it, the Crime Subcommittee is traditionally the 
busiest Subcommittee of the Judiciary Committee. We meet often 
because Congress has an important role to play in developing 
policy and legislation regarding the criminal justice system 
and the fight to defeat terrorism, as well as the effort to 
keep the homeland secure.
    Youth violence is one of the most challenging issues facing 
our Nation. Although we have done much to reduce the overall 
level of violent crime across the country, violence among 
youth, either as individuals or as members of organized 
criminal gangs, has been a difficult problem.
    Today's hearing on youth violence is certainly timely. I 
thank the Chairman for having this hearing.
    As many of you know, James Fox, a criminology professor at 
Northeastern University, recently published a study and found a 
nationwide surge in gun-related homicides involving young, 
Black males. Specifically, the study found that the homicide 
victimization rate for Black males aged 14 to 17 increased 
nationwide from 2002 to 2007 by 31 percent. The number of Black 
male juveniles accused of murder rose by 43 percent over the 
same time period. Paradoxically, the study covered a time when 
the Nation saw an overall decrease in violent crime, including 
a 1.3 percent decline in murders in 2007.
    The Fox study stated the cuts in Federal support for 
policing and youth violence prevention may be partly 
responsible for the resurgence in homicide, especially among 
minority youth. In the study, Professor Fox urges increases of 
Federal funding for crime prevention, crime control, and, in 
particular, the COPS program and juvenile justice initiatives.
    The study predictably gained a good deal of media 
attention, especially in the cities and areas highlighted in 
the report. Along with this media attention came some criticism 
that the study misrepresents trends in murder rates among 
African-American youth.
    In testimony before the Senate Judiciary Committee at a 
January hearing, Dr. David Muhlhausen of the respected Heritage 
Foundation wrote that the surge described by Professor Fox and 
his research team was overstated. Dr. Muhlhausen wrote that, to 
put this surge in proper perspective, policymakers need to 
understand that the years used in this comparison were selected 
for their dramatic effect. Muhlhausen wrote that it was 
necessary to view the violent crime rate over a longer period 
to obtain a balanced perspective on homicide rates of young 
males.
    Dr. Muhlhausen advocated an approach where violent crime 
trends were followed over a 30-year period, about a generation, 
from 1976 to 2007. Taking this longer view, he notes that the 
2007 level of Black homicide victimizations, the year which was 
the high point of the 7-year period studied by Professor Fox, 
is dramatically lower than the 1993 level.
    Further, Dr. Muhlhausen noted that the homicide 
victimization rate of 14- to 17-year-old Black males decreased 
by almost 60 percent from 1993 to 2007, a decrease from 47 
homicides per 100,000 in 1993 to 19 homicides per 100,000 in 
2007.
    We all acknowledge one homicide is too many, and we should 
work to prevent them.
    Dr. Muhlhausen also noted that the upward trend in Black 
homicide victimization rates for the periods studied by 
Professor Fox did not hold for older males. From 2002 to 2007, 
the homicide victimization rates of Black males aged 18 to 24 
and 25 and older decreased by 2.5 percent and 1.4 percent 
respectively.
    I recite these statistics not to make light of the Fox 
study at all, but I do want to inject some perspective into the 
discussion that we will have today. I think that it is 
important to note that most indicators demonstrate that America 
is overall a much safer place than it was 15 years ago. Studies 
by the Department of Justice Bureau of Justice Statistics 
indicate that, since 1994, the national rate for violent crime, 
including robbery, sexual assault, and murder, decreased 
nationally, reaching the lowest level ever recorded in 2005.
    Further, the most recent published FBI Uniform Crime 
Report, or UCR, indicates a continued decrease in the rate of 
violent crimes nationally. Paradoxically, the UCR also showed 
the rate of violent crime increased in smaller cities, 
including Austin and San Antonio in my home State. There is 
also this unsettling increase in youth crime. These are the 
anomalies that I would like to hear further discussed.
    Further, I hope that the discussion involves more than 
merely advocating more Federal funding for State and local law 
enforcement. In the last 10 years, Congress committed 
significant resources to programs like the Byrne JAG program 
and COPS office at the Department of Justice. Since 1999, Byrne 
JAG grants have totaled more than $8.4 billion in funding. And, 
in the last 10 fiscal years, the COPS program has awarded more 
than $7.49 billion to over 13,000 law enforcement agencies.
    Although much of this money has gone to good use, there are 
a number of studies and IG reports that indicate some cities 
and localities have misused the funds by not complying with 
grant conditions. Other studies have shown that Federal funding 
has not led to an increase in the overall spending by local law 
enforcement but merely replaced State and local funding for 
police and law enforcement agencies.
    The so-called economic stimulus passed by the House 
includes $4 billion in local law enforcement spending, and the 
Senate bill reportedly contains $3.5 billion for that purpose. 
Nonetheless, I am concerned that overall funding in both bills 
represent an irresponsible increase in Federal spending of 
money we do not have, and that will so overwhelmingly overload 
the coming generations with debt they will be prevented from 
ever getting to enjoy the American dream of economic freedom.
    Rather than this huge increase in Federal funding, we 
should support grassroots organizations and community groups, 
including faith-based groups, who are motivated by love and 
care rather than Federal money.
    I look forward to hearing the testimony of the witnesses. I 
am especially interested in the testimony of the witnesses who 
represent community groups and faith-based organizations, who 
will testify from their perspective. I believe the Members of 
the Subcommittee will benefit from the expertise and 
recommendations for those best practices.
    I yield back the time.
    Mr. Scott. The Subcommittee will now go into recess. We 
will return as soon as this series of votes is over.
    [Recess.]
    Mr. Scott. If our witnesses would come forward.
    Judge Gohmert will be back momentarily. Let me introduce 
the witnesses as we are waiting for Judge Gohmert.
    Our first witness will be Dr. Barry Krisberg, president of 
the National Council on Crime and Delinquency, the oldest 
criminal justice research organization in America. He is 
nationally known for his research and expertise on juvenile 
justice issues. Before joining NCCD, he was a faculty member at 
the University of California at Berkeley and an adjunct 
professor at the Hubert Humphrey Institute of Political Affairs 
at the University of Minnesota. He has a master's degree in 
criminology and a doctorate in sociology from the University of 
Pennsylvania.
    Our next witness will be Ms. Dorothy Johnson-Speight, who 
is the founder of Mothers in Charge, a Philadelphia, 
Pennsylvania, organization devoted to youth violence prevention 
through education and intervention. She is also the founder of 
the first African-American chapter of Compassionate Friends, a 
national self-help organization which assists families in the 
positive resolution of grief following the death of a child. 
She has a master's degree from Lincoln University and has 
worked toward her doctorate at Union Institute.
    The third witness will be Mr. Steven Trubow, head of 
Olympic Behavior Labs, which produces software to predict and 
prevent youth violence and gang activity. He has developed and 
implemented the Dropout Early Warning System, a software 
program that identifies students who are most likely to commit 
violence and to drop out of school, enabling parents and 
educators to concentrate prevention efforts on these vulnerable 
youth. He has a bachelor's degree from Ohio State University 
and a master's degree from the University of Wisconsin.
    The fourth witness will be Irving Bradley, Jr., director of 
police for Trenton, New Jersey, Department of Police. Before 
his tenure as director, he served as a police officer for the 
city of Newark, New Jersey, from 1986 through 2004, then served 
as Newark's chief of police. Director Bradley is the first and 
only African-American chief of police in Newark's 342-year 
history and is a graduate of Shaw University.
    Our fifth witness is Robert Woodson, founder and president 
of the Center for Neighborhood Enterprise, a research and 
demonstration organization that supports neighborhood-based 
initiatives to reduce crime and violence. For more than 3 
decades, he has focused much of the organization's activities 
on an initiative to establish violence-free zones in trouble 
spots throughout the Nation. He received a bachelor's degree 
from Cheyney University and a master's degree from the 
University of Pennsylvania.
    Our final witness will be Dr. Beverly Coleman-Miller, who 
is here on behalf of the Urban Networks to Increase Thriving 
Youth, or UNITY. She is also a senior medical consultant to 
Health Education Network, an internationally known expert on 
youth violence. Dr. Coleman-Miller has a bachelor's degree from 
the University of Pennsylvania and an M.D. Degree from Temple 
University School of Medicine.
    We will now proceed with our testimony. And I understand 
Ms. Speight has a train which would--if there is no objection, 
we would allow her to testify first and ask her questions, if 
there are any, and then she can try to make her train.
    Ms. Johnson-Speight. Thank you.
    Mr. Scott. Without objection.
    Ms. Johnson-Speight.

   TESTIMONY OF DOROTHY JOHNSON-SPEIGHT, FOUNDER, MOTHERS IN 
                   CHARGE, PHILADELPHIA, PEA

    Ms. Johnson-Speight. Good afternoon. I am Dorothy Johnson-
Speight, founder and executive director of Mothers in Charge. I 
am also mother to Khaaliq Jabbar Johnson, who, at 24, in 
December 2001, was shot seven times over a parking space. I 
wanted to do something with my anger and my tears and my pain 
and everything I felt as a result of his murder. Mothers in 
Charge was formed.
    Mothers in Charge is an organization comprised of mothers, 
grandmothers, aunts, and sisters, most of whom have lost a son, 
a daughter, or a loved one to violence. We provide support 
services to individuals and families affected by violence.
    However, in addition to the grief and victim support 
programs, we focus a large amount of our efforts on violence 
prevention and intervention programs for children and families, 
along with other various community support services.
    These services include, but are not limited to, a mentoring 
program with juvenile offenders incarcerated at the 
Philadelphia Industrial Correctional Center, which is an adult 
facility housing sometimes over 160 juveniles that have been 
court adjudicated as adults because of the type of crime they 
have committed; also, a reading program for youth at risk to 
increase their reading and academic skills; and a female rights 
of passage program to encourage healthy relationships, self-
esteem, and self-respect for young females.
    Mothers in Charge also provides countless violence 
prevention workshops and seminars throughout the school 
district and city of Philadelphia and surrounding areas.
    There is a culture of violence among our youth, with the 
violent movies and video games, games that give points for the 
best shot, and the music that promotes using a handgun to 
handle conflict and frustration. Our youth are bombarded with a 
message of violence on a daily basis.
    In Pennsylvania, a 16-year-old can get his hand on an 
illegal handgun before he can a textbook. There is something 
seriously wrong with that picture. This is mainly due to lax 
gun laws that allow store purchasers to walk in gun stores in 
Pennsylvania and purchase handguns in about 40 minutes, with no 
waiting period, no fingerprinting. Oftentimes those guns end up 
in the hands of our youth. While this issue is not about the 
responsible gun owner, it is about illegal guns that are 
killing our youth and destroying communities.
    We believe in community involvement for change. Our 
communities feel that government needs to play a role in 
helping grassroots organizations with concrete and immediate 
legislation, more funding, support of grassroots organizing, 
and citizen action. With this support, a measurable reduction 
in crime would be visible. Whether it is Columbine or on the 
streets of north Philadelphia, we must save our most precious 
gift from God, our children.
    I would like to share a recent documentary that we filmed 
as a message to young people. This was done in the prison here 
in Philadelphia, and it is our way of getting a message to 
young people to let them know that violence not the answer. You 
also will see a few mothers sharing their stories of living 
with the pain of losing a child to violence.
    [Video played.]
    Ms. Johnson-Speight. Turning the tide on violence's path to 
the grave or to the penal system is our responsibility to 
future generations. And it has to be a current local and 
national priority of our great Nation, starting with addressing 
our hurt, angry, and at-risk youth.
    Mothers in Charge, working for positive change in our 
communities over the last 5 years, is an example of what can 
happen when we make a commitment to make a difference. I know 
we could do so much more to save lives if we had committed 
partners in the schools, communities, and government.
    I applaud the courageous women of Mothers in Charge for 
their efforts. They work every day on the front lines to make a 
difference with the violence in our communities. This spring, 
we bring another message, our first book, entitled, ``Mothers 
in Charge: Faces of Courage.''
    A friend asked, should there be a book telling the stories 
of how mothers and fathers, just like some of you, have lost 
their dreams for the future, how their children were 
senselessly murdered? Yes, these stories are important, because 
we want you to know and understand this. We want you to know 
how these courageous women have turned their pain into a 
campaign for peace in Philadelphia, Norristown, and Chester, 
Pennsylvania; New Jersey; and Brooklyn, New York. We hope this 
collection of inspirational stories will be read by each one of 
you and will move you to do something, anything you can to save 
a life.
    Thank you.
    I am going to present this to the Chairman. It is a rough 
copy of what is going to come out in the spring of 2009. But 
this is for you.
    [The prepared statement of Ms. Johnson-Speight follows:]

             Prepared Statement of Dorothy Johnson-Speight

    My name is Dorothy Johnson-Speight and I am Founder and Executive 
Director of Mothers In Charge (MIC). MIC is an organization comprised 
of mothers, grandmothers, aunts, and sisters, most of whom have lost a 
son, daughter or loved one to violence. We provide support services to 
individuals and families affected by violence.
    However in addition to the grief and victims support programs, we 
focus a large amount of our efforts on violence prevention and 
intervention programs for children and families, along with other 
various community support services. These services include but are not 
limited to a mentoring program with juveniles offenders incarcerated at 
the Philadelphia Industrial Correctional Center (PICC) which is an 
adult facility housing sometimes over 160 juveniles that have been 
court adjudicated as adults because of the type of crime committed, a 
reading program for youth at risk to increase their reading and 
academic skills and a female Rites of Passages program to encourage 
healthy relationships, self esteem and self respect for young females. 
Mothers In Charge also provides countless violence prevention workshops 
and seminars throughout the school district and the city of 
Philadelphia and surrounding areas.
    There is a CULTURE OF VIOLENCE AMONG OUR YOUTH. With the violent 
movies and violent video games that gives points for the best shot and 
the music that promotes using a handgun to settle conflict or handle 
frustration, our youth are bombarded with messages of violence on a 
daily basis. In Pennsylvania, a 16 year old can get his hands on an 
illegal handgun before he can a text book. There is something seriously 
wrong with that picture. This is mainly due to lax gun laws that allow 
straw purchasers to walk into gun stores in PA and purchase handguns in 
about 40 minutes with no waiting period, and no fingerprinting often 
times, those guns end up in the hands of our youth. While this issue is 
not about the responsible gun owner, it is about illegal guns that are 
killing our youth and destroying communities. Please know that no one 
is safe until we are all safe.
    We believe in community involvement for change. Our communities 
feels the government needs to play a role in helping grass roots 
community organizations with concrete and immediate legislation , more 
funding, support of grass roots organizing, and citizen action, with 
this support a measurable reduction in crime would be visible. Whether 
it's Columbine, or on the streets of North Philly, we must save our 
most precious gift from God, our children. I would like to share a 
recent documentary we've done. This is a condensed piece of our message 
to the youth. We must do more, we must send a powerful message to our 
youth that violence is not the answer.
    Turning the tide on violence's path to the grave or the penal 
system is our responsibility to future generations and it has to be a 
current local and national priority of our great nation starting with 
addressing our hurt, angry, and at risk youth.
    Mothers in Charge, working for positive change in our communities, 
is an example of what can happen when we all make a commitment to make 
a difference. I know we could do so much more to save lives if we had 
committed partners in the schools, communities, and government. I 
applaud the courageous women of Mothers In Charge for their efforts
    This spring we bring another message, our first book entitled 
Mothers In Charge ``Faces Of Courage''. A friend asked should there be 
a book telling the stories of how mothers and some fathers just like 
you, who have lost their dreams for the future, how their children were 
senselessly murdered. Yes, these stories are important because we want 
you to also know and understand this; we want you to know how these 
courageous women have turned their pain into a campaign for peace in 
Philadelphia, Norristown and Chester PA, New Jersey and Brooklyn, NY. 
We hope this collection of inspirational stories will be read by each 
one of you and it will move you to do something, anything you can to 
save a life.
    Thank You
                               __________

    Mr. Scott. And, without objection, that will be added to 
the record of the hearing.
    Mr. Gohmert. She wants you to have it.
    Mr. Scott. Well, it will be part of the record; I will get 
it.
    Thank you. I know you have a train; I hope you can catch 
it.
    Did you have questions, Judge Gohmert?
    Mr. Gohmert. I don't want to delay her from missing her 
train.
    Ms. Johnson-Speight. That is okay. I have time, I think.
    Mr. Gohmert. We do appreciate you coming. And you are proof 
of the resiliency and how people can go to work and make 
something good and work something absolutely horrible for a 
good. And for that we thank you, we appreciate you. And, 
obviously, you have made a difference in many lives. It is 
people like you really caring that do make that difference. So 
thank you very much, not just for coming, but more especially 
for all you have been doing to help your neighborhood.
    Ms. Johnson-Speight. Thank you.
    Mr. Scott. Thank you.
    Mr. Smith?
    Mr. Smith. Thank you, Mr. Chairman. I know the witness has 
to catch a train. Let me just add my thanks, as well, for both 
your testimony and for making the effort to be here today.
    Ms. Johnson-Speight. Thank you.
    Mr. Smith. And I yield back.
    Mr. Scott. Thank you.
    And I would like to add my voice to the thanks for being 
here. It reminds us of how hard we need to work to reduce the 
incidence of this situation happening. Once it happens, of 
course, you can help those victims through that process. But we 
are going to try to do the best we can, in addition to that, to 
reduce the number of families subjected to that tragedy.
    Ms. Johnson-Speight. I thank you for that.
    Mr. Scott. So thank you very much.
    Mr. Gohmert. Might I point out one thing, Chairman?
    I think it is also proof that the love that you had for 
your son and the love for the people that you live around is 
stronger than the hate that killed your son. And for that, 
thank you very much.
    Ms. Johnson-Speight. Absolutely. Thank you.
    Mr. Scott. The gentlelady from Texas?
    Ms. Jackson Lee. I understand there is a time constraint, 
so let me add my appreciation and indicate my delay was because 
I was in other meetings.
    But I think the key element of what you expressed today 
should be the mantra for this Congress and certainly for, I 
believe, this Administration--not speaking for them, but 
knowing the kind of leadership that has been placed at the 
Department of Justice, working with a Congress that, you have 
heard from both sides of the aisle, is sensitive to 
intervention and redemption and rehabilitation. And that is 
what you have expressed.
    Ms. Johnson-Speight. Absolutely.
    Ms. Jackson Lee. And the sacrifice that you have made in 
the name of your son to do that is the road map that we hope to 
be able to follow.
    So let me yield back, Mr. Chairman.
    And thank you very much--I want to make sure I am 
pronouncing it correctly, is it ``Speight''?
    Ms. Johnson-Speight. ``Speight.''
    Ms. Jackson Lee. ``Speight.'' So, Ms. Dorothy Johnson-
Speight, thank you so very much for your leadership.
    Ms. Johnson-Speight. Thank you.
    Ms. Jackson Lee. I yield back.
    Mr. Scott. As she leaves, we will resume the testimony, 
starting with Dr. Krisberg.
    I forgot to explain what those lighting devices are on the 
table. We try to keep the testimony to 5 minutes. After 4 
minutes, a yellow light will come on. And when the red light 
comes on, try to keep it as brief as possible after that.
    Dr. Krisberg?

TESTIMONY OF BARRY KRISBERG, Ph.D., PRESIDENT, NATIONAL COUNCIL 
             ON CRIME AND DELINQUENCY, OAKLAND, CA

    Mr. Krisberg. Thank you very much, Chairman Scott. I 
appreciate very much the opportunity to address the 
Subcommittee.
    When James Fox's study came out and was broadly 
disseminated by the press, this certainly caught a lot of us--
caught our attention and suggested that we needed to look at 
the data he was putting forth and what the implications are.
    My intention today is not to get into a statistical 
discussion of the data, although, certainly, that is worth 
having at some point. What we wanted to do--and, actually, this 
project has been ongoing for about 9 months--is to take a look 
at these youth who are committing those violent crimes. And so, 
with the support of the Annie E. Casey Foundation, we went into 
three cities across the country--Washington, DC; Dallas, Texas; 
and San Mateo County, California, which includes some very 
high-crime areas, including East Palo Alto, Redwood City, and 
some others.
    And, in the course of that study, we did three things. 
First of all, we looked at the media coverage of youth violence 
in those cities, and the patterns were remarkably similar. We 
also talked to dozens of criminal justice professionals--
police, prosecutors, public defenders, judges--to get their 
perspective on what they thought was going on. And I think most 
significantly and what I would like to talk about the most, we 
conducted in-depth interviews with 24 youth who were 
incarcerated in those counties, most of them for very violent 
crimes, mostly gun-involved. And we wanted to find out from the 
youth themselves, and the fundamental question we were asking 
was, who are they?
    Now, a decade ago, in this very room, witnesses came before 
this Committee and talked about the ``super predator.'' One 
judge referred to the ``hoards from hell'' that are overcoming 
our cities. Penn Professor John DiIulio talked about 
``fatherless, jobless, godless'' young people who have overrun 
our cities. And because of this rhetoric, a lot of laws were 
passed, a lot of legislation came into being, much of which we 
now realize was badly conceived of, and we are now just trying 
to dig out from under this.
    Despite these enormous claims that our cities were going to 
be overwhelmed by the super predators, most of which were youth 
of color, for the next 12 years in a row juvenile crime rates 
went down, juvenile violence has been going down. So, for some 
reason, the super predators decided to do something else.
    Having said that, though, if you fast-forward to the media 
today, we are seeing the same thing, language like ``kids who 
kill with no conscience,'' ``domestic terrorists.'' So, once 
again, the media is creating an image in the public's mind of 
who these youth are, and I think this image is dangerous.
    What we found in these three cities, just specifically on 
the media, it is pretty interesting. These are three cities 
that overall have reflected a downward turn in juvenile crime 
and juvenile violence over the last decade. But the media 
consistently, we found, reported increases in crime, if they 
were short-term, never reported decreases in crime.
    The second thing the media consistently attributed to youth 
most of the violence problem. In all of these cities, most 
violence is conducted by young adults. Youth account for a 
small percentage of the violent crime in these cities. Yet, if 
you read the local newspapers, you would think youth account 
for all of it.
    And the final issue is that, very often, the media offers 
no context. They don't do a good job of answering the ``why'' 
questions. And when we talked to the practitioners in these 
cities, they indicated that this information being put out to 
the public made their jobs tougher, and that they wanted a 
situation in which there was more accurate, timely information. 
And I will get back to that later on.
    But let me move to the kids. First and foremost, I want to 
report to you: These are not monsters. These are young people 
who have made, as Ms. Speight eloquently said, who made some 
bad choices, ended up being at the wrong place at the wrong 
time. And I want to remind you that, as adolescents, that is 
what adolescents do, they make bad choices. And hopefully we 
can figure out how to help them recover from those choices.
    We sat in detention centers and juvenile facilities, and 
these young people were respectful, funny, open and candid with 
us about their lives. And what did they tell us? They told us 
that they, by and large, had come from chaotic home lives, 
dominated by substance abuse, violent or absent parents; 
multiple residence changes; parents in prisons and jails. And 
they emphasized that their lives had been filled with these 
very difficult family situations. Not every case, but 
overwhelmingly that is what they told us.
    They also told us that, by and large, their life was more 
defined by the streets, and that there weren't a lot of options 
in their communities that were positive, so they ended up being 
drawn into the street culture of guns and violence and drugs 
because it was there. And, again, they were looking for 
options, but they didn't find too many.
    The juvenile justice system, interestingly most of them saw 
their temporary incarceration as a brief moment of respite and 
even safety compared to the lives they lived. But my issue is, 
can't the society protect vulnerable children other than behind 
razor wire? It seems like we ought to be able to figure this 
out. And, in some ways, it is a tragic judgment that juvenile 
hall is a safe place to be. And, in fact, we know it isn't a 
safe place to be, but for these young people it is better than 
where they were before.
    Schools they found, by and large, unhelpful. I mean, these 
were the young people that Congressman Scott talked about, who 
get booted out, expelled, run up against zero-tolerance rules, 
and so get propelled out into the streets. And, essentially, 
they were urging us to tell you that these are the issues, 
these family problems, the lack of support, and hoping that 
something could be done about it.
    And, by the way, the criminal justice professionals agreed 
with them almost entirely, that the youth were stating the 
right causes. Certainly they said, and I would agree, that law 
enforcement has a role to play, but none of the people we 
talked to in the criminal justice system felt that the police 
by themselves could solve this problem, and emphasized 
prevention and early intervention.
    Now, if I can just move into some recommendations which I 
think this Committee should consider.
    Mr. Scott. If you can make them as quick as you could.
    Mr. Krisberg. Sure.
    I think it is critically important that the Office of 
Juvenile Justice return to being a source of accurate and 
timely information about crime. The media needs to go someplace 
and get fair and honest information, and the Office of Juvenile 
Justice used to play that role; hasn't done so good in recent 
years. They should also consider media training, actually 
bringing people in and helping the media understand juvenile 
crime and juvenile justice.
    In terms of the other kinds of issues, I think from a 
priority point of view--and I am a big fan of the ``Youth 
PROMISE Act''--we need to put money into helping vulnerable 
families overcome their challenges and be better parents. Kids 
run away from programs to go back to their abusive parents; it 
is a fact. So, I mean, we can bury our heads in the sand, but 
we have to do something about it.
    The other thing I will just end with is we have to provide 
some support for police and probation officers, better training 
of dealing with juveniles. There is virtually no curriculum in 
this country helping police officers or, for that matter, even 
probation people to really know what to do with troubled kids. 
They are trying to do the best they can, but if you put law 
enforcement officers out on the street, dealing with kids who 
have gone through these experiences, without any tools, we 
don't expect they are going to succeed.
    Anyway, thank you very much, and I look forward to your 
questions.
    [The prepared statement of Mr. Krisberg follows:]

                  Prepared Statement of Barry Krisberg

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you, Dr. Krisberg.
    Mr. Trubow?

TESTIMONY OF STEVE TRUBOW, HEAD OF OLYMPIC BEHAVIOR LABS, PORT 
                          ANGELES, WA

    Mr. Trubow. First, I would like to thank Chairman Scott and 
the Subcommittee for letting me come from Seattle, Washington, 
to testify today.
    Olympic Behavior Labs and its partners--Microsoft 
Corporation, the National Dropout Prevention Center at Clemson 
University, Sypherlink, and Choice Solutions--has developed and 
implemented 13 dropout early warning systems in South Carolina, 
Mississippi, and Alaska. And those systems are up and running 
today. And they give us the opportunity to identify children--
kindergarten, first grade, second grade--who are most at risk 
for dropout, truancy, gangs, and violence.
    My remarks today are really focused on school dropout, 
gangs, and youth violence.
    Solutions for gang violence and dropout prevention require 
persistent, systematic, and automated predictive risk 
assessment to target the most effective gang prevention 
programs. In the 2009 National Gang Assessment, the FBI counted 
1 million street gang members in 2008. That represents a 25 
percent increase of 250,000 new gang members since 2005.
    Gang members are increasingly migrating from urban to 
suburban areas and are responsible for the escalating rate of 
crimes and violence in those communities, to include violence 
at public schools. The North Carolina Department of Public 
Instruction reported in December 2008 that 64 percent of high 
schools in North Carolina have a gang presence in their 
classroom.
    It is evident that we cannot take every gang member off the 
street. Intervene with multidimensional therapies to normalize 
each gang member's criminal and violent lifestyles. Or prevent 
school children from joining gangs with the 7-hour GREAT 
seminar. GREAT is ``Gang Resistance Education and Training.''
    If the premise of prevention science is to stop a behavior 
before it happens, the indicators that predict the behavior 
must be persistently and comprehensibly assessed, analyzed, and 
addressed with interventions to mitigate the probability of 
risk. In other words, if you want to stop violence and gangs 
from happening, you have to get to the root causes, and you 
have to do interventions at a young enough age to stop it.
    When we try to prevent cancer, we don't wait until someone 
has cancer; we do it before. But when we talk about gang 
prevention, we wait until the kids are already in gangs to do 
prevention. So we have to do risk assessment.
    And this is documented. It is research-based. It was 
pioneered by Dr. Buddy Howell, David Hawkins, and Richard 
Catalano in the 1990's. We know that it works. We know how to 
predict which children are going to get involved in gangs and 
violence.
    Among the major educational problems in the United States, 
the disproportionate educational opportunities for minority and 
economically disadvantaged children is a key critical issue, 
likely to grow even greater if prevention and corrective 
actions are not implemented immediately.
    This issue is well-documented as an alarming trend across 
the Nation and has many negative effects on society. It is best 
illustrated by the disproportionate levels of unemployment and 
incarceration for Black and White high school dropouts, as well 
as the large increase in the number minority street gang 
members, and responsible for raising the level of youth 
violence and substance abuse.
    The root causes behind this critical problem are the strong 
relationship that exists between school-related risk factors, 
such as the lack of school readiness for minority youth and the 
minority achievement gap, truancy, school dropout, and dramatic 
increases in youth violence.
    Again, this relationship is in every State and every 
community across the Nation, with the highest concentrations in 
urban areas and Indian reservations.
    All children, and particularly minority and economically 
disadvantaged children, must be given equal access to equitable 
educational opportunities if they are to be productive 
participants in our global economy. Otherwise, our society will 
continue to suffer with exaggerated costs derived from 
nonproductive incarceration, and our children will be caught in 
a cycle of disengagement.
    A dropout early warning system that utilizes evidence-
based, school-related risk or protective factors is essential 
to determining which individual students are most likely to 
join gangs or participate in other dangerous and destructive 
activities leading to school disengagement and ultimately 
dropout.
    The research base and developmental framework for dropout 
early warning systems incorporates many National standards, 
including No Child Left Behind, the Office of Juvenile Justice 
and Delinquency Prevention comprehensive gang prevention model, 
and the IES Practice Guide for Dropout Prevention published by 
the U.S. Department of Education.
    This framework also addresses No Child Left Behind 
limitations for monitoring systemic school-wide weaknesses and 
more accurately determines a school's 4-year cohort graduation 
rate.
    Local action teams, very similar to the ``Youth PROMISE 
Act,'' consisting of school and community stakeholders, can use 
the Office of Juvenile Justice and Delinquency Prevention 
comprehension gang prevention model with interagency 
collaboration and a common data-sharing model as a response to 
local barriers of implementation and isolated data silos to 
develop the most effective evidence-based, best-practice model 
programs for prevention and intervention strategies for 
truancy, dropout, gangs, and violence.
    Model programs' best-practice strategies are used to reduce 
risk factors and increase protective factors for kids. This 
system includes a case management Web portal with risk 
assessment and evaluation for the effectiveness of prevention 
programming and interventions.
    Thank you again for giving me the time to present.
    [The prepared statement of Mr. Trubow follows:]

                  Prepared Statement of Steven Trubow

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you very much, Mr. Trubow.
    I just wanted to point out that we have been joined in the 
auditorium--we don't usually recognize people in the audience, 
but Lee Baca, the sheriff of Los Angeles County, is with us 
today. We had a discussion earlier today on many of these 
issues, and he is very supportive of what we are trying to get 
done.
    Thank you, Sheriff Baca, for being with us today.
    Mr. Bradley?

 TESTIMONY OF IRVING BRADLEY, JR., POLICE DIRECTOR, TRENTON, NJ

    Chief Bradley. Mr. Chairman, Members of the Subcommittee on 
Crime, Terrorism and Homeland Security, thank you for inviting 
me to testify today.
    My name is Irving Bradley, Jr. I have been in law 
enforcement for 23 years and recently became director of police 
for the city of Trenton, New Jersey; formerly chief of police 
for the city of Newark, the largest city in New Jersey.
    I am a member of Fight Crime: Invest in Kids, a nationwide 
bipartisan group of chiefs, prosecutors, sheriffs, and victims 
of violence dedicated to examining the research on what brings 
kids in contact with the criminal justice system and the most 
effective ways to direct them toward lives of safety, 
responsibility, and positive achievement.
    There is no single solution to crime, as we are all going 
to find out today. The great challenge of policing is to 
identify a mix of proven prevention and enforcement strategies 
and tactics that work to make our communities safer.
    As first responders to emergencies 24/7, police officers 
see all the tragedies that occur on the streets and even in the 
homes. From our experience, law enforcement leaders know that 
they need to target at-risk youth and the environment that 
produces them if they are to forge an effective crime reduction 
strategy.
    I always tell people all the time, people who look at law 
enforcement always seem to get negative connotations of what we 
do on the street. The media and television show that we always 
arrest people and chase them down. But, as we know as law 
enforcement people, 80 percent of our job is social work. 
Twenty percent is what you see on television. In that regard, 
we look for unique programs to channel a lot of that social 
work ability that we do have into a program that we started in 
Trenton called YouthStat.
    My police department, like thousands across the country, 
have embraced community problem solving as a service delivery 
model. This means we try to deal with recurring problems 
proactively and in partnership with the community, which is 
very important. To that end, we have created this program 
caught YouthStat. YouthStat is a weekly process to examine 
criminally adjudicated youth offenders in the greater Trenton 
area. Working in collaboration with city, county, and State 
programming agencies, participating members of YouthStat work 
to apply a mix of preventive programs and interventions for 
these youth.
    Taking a more holistic approach and assessing the needs of 
these youth on an individual basis can prove to be extremely 
successful. For example, we had a kid, Kamir, 15 years of age, 
whose behavior included minor criminal offenses, chronic 
truancy, and has improved his behavior immensely and is now 
attending high school regularly--a remarkable change from his 
past. Usually we find a lot of our African-American males never 
make it to 10th grade. This is a kid that got in the program 
and actually is doing well.
    Another young lady, Delores, 18 years of age, a victim of 
an unstable home environment, chronic truancy, adjudicated 
delinquent, has similarly improved her behavior substantially, 
successfully graduated from high school, is now fully employed 
and being a positive influence in the community.
    Other programs that we are aware of: Home visiting programs 
offer frequent, voluntary home visits by trained individuals to 
help new parents get the information, skills, and support they 
need to raise healthy families and safe kids. The Nurse-Family 
Partnership, NFP, has been shown to cut at-risk kids' child 
abuse and neglect in half and reduce their later arrests by 
about 60 percent, saving $5 for every dollar invested.
    A study of one model, which I happened to be a participant 
in as a kid, Head Start, found that low-income, at-risk kids 
who did not attend the program were five times more likely to 
become chronic law breakers by age 27. This program saved more 
than $16 for every $1 invested. And, as I said before, I was a 
product of Head Start, and I am here sitting before you today. 
So it is goes to show you the importance of getting kids at an 
early age in a structured program.
    A study of The Incredible Years, a comprehensive program 
for young children with emotional and behavioral problems, 
found that 95 percent of participating children experience 
significant reductions in problematic behavior.
    The Good Behavior Game is a classroom approach that is 
simple and can be used for young children or teenagers and 
produces long-term results, including a 50 percent lower 
dependence on drugs.
    High-quality after-school programs, which really right now 
is missing in a lot of our urban sectors, gives our kids the 
opportunity to participate in the program from 3 to 6 p.m. I am 
pretty sure everybody up there participated in an after-school 
program and became very effective.
    A study found that housing projects without Boys and Girls 
Clubs had 50 percent more vandalism and scored 37 percent worse 
on drug activity. If we don't provide latch-key kids with 
structure, protection, and a sense of belonging, the local 
gangs will fill the gap, as we see today. And once our kids 
join the gang, it is tough to get them out.
    Quality mentoring program, a program we started at Trenton 
Police. A study of Big Brothers and Big Sisters found that 
young people assigned to a mentor were about half as likely to 
begin illegal drug use and literally one-third less likely to 
hit someone compared to those on a waiting list. My police 
department is so committed to mentoring that a number of our 
officers, 16 as we stand right now, have all become mentors for 
our local at-risk youth. And we are going to expand that. And I 
am also a mentor also.
    But is there anything proven to work once kids start 
committing offenses? Yes. Functional Family Therapy cuts 
juvenile recidivism in half and saves the public an average of 
$32,000 per youth treated. It doesn't surprise me that such 
therapeutic approaches of delinquent youth can be so effective 
since studies of incarcerated youth reveal that as many as 70 
percent suffer from disabling conditions.
    I have had cases where young people have intentionally 
violated their parole or have done something to get locked back 
up. I just found that out just interviewing kids. They just 
want to go back because they can't cope. We have to break that 
cycle.
    Multidimensional treatment foster care can cut the average 
number of repeat arrests for serious delinquent juveniles in 
half and save the public an average of over $77,000 for every 
juvenile treated.
    This is why we support Chairman Scott's ``Youth PROMISE 
Act.'' This legislation will provide resources to communities 
to develop and implement plans, specific to the needs and 
strengths of the community, that utilize evidence-based 
prevention and intervention approaches like those I have 
discussed today.
    Kids in tough cities, which I have grown up in in Newark, 
have tough decisions to make, and we have to provide them 
alternatives to gangs, drugs, and life on the streets. Having 
been an at-risk kid who spent time in foster care, someone who 
has been a beneficiary of Head Start, a Boys Club recreation 
program, and mentoring by caring adults in my community, I am a 
living, breathing example of what these programs can help 
accomplish.
    Thank you for this opportunity to testify, and I will be 
more than glad to answer any questions.
    [The prepared statement of Chief Bradley follows:]

               Prepared Statement of Irving Bradley, Jr.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you. And tell Mayor Palmer that you did a 
good job.
    Chief Bradley. Oh, thank you.
    Mr. Scott. Mr. Woodson?

 TESTIMONY OF ROBERT L. WOODSON, FOUNDER AND PRESIDENT, CENTER 
          FOR NEIGHBORHOOD ENTERPRISE, WASHINGTON, DC

    Mr. Woodson. Thank you. I am Bob Woodson, president of the 
Center for Neighborhood Enterprise, an organization I started 
28 years ago. And the center is dedicated to assisting low-
income leaders in 39 States. We have trained over 2,000 
grassroots leaders in intervention.
    Most of my experience has been in reducing youth violence. 
It is fair to say and evidence proves that conventional 
approaches to reducing violent youth has not worked, and that 
is an increase in cops, cameras. And therapeutic interventions 
just have not worked for the number of kids who are in crisis 
today. Our model, called the Violence-Free Zone, is based on 
the premise that young people are more influenced by their 
peers than they are from adults who are outside that community.
    The Secret Service commissioned a study that went around 
and asked about 38 youth killers to find out if there was a 
common profile. They found there was no common profile, but 
what they had in common was that they told a friend what they 
were going to do prior to doing it. And yet we don't have a way 
of tuning into the cultural ZIP code of these kids. Well, we 
have found that, when you began to reach in and empower peers, 
young adults who have similar experiences and have risen above 
those experiences, that they are powerful leaders.
    And most of what we have learned is from your colleague, 
Chaka Fattah. My hometown of Philadelphia used to be known as 
the youth gang capital of America--48 gang deaths per year. But 
Sister Fattah and David took into their home, with Chaka, 15 
gang members. And they moved out all the furniture, and the 
House of Umoja was born. They made national headlines because, 
3 years later, they reached out to warring gang members from 
around the city of Philadelphia. And as a consequence of their 
unorthodox approach, there was a truce signed throughout the 
city, and youth gang violence went down from 48 to 2 in 2 
years.
    Well, what I did was study what they did and how they did 
it, and I wrote book called ``A Summons To Life.'' The 
approaches that they took were tested in 1983 in the city of 
Philadelphia where young groups of Blacks were attacking 
shoppers on the subways, in the buses, throwing people down, 
ripping off chains. Police increased patrols; that didn't work.
    We went to Sister Fattah. They took the unorthodox step of 
recruiting four OGs, or ``old gangsters'' they call them. They 
went to the house of correction, the jails, signed up 135 
inmates into a crime prevention task force. They sent forth 200 
young people who were brought to the prisons. And as a 
consequence of going and cultivating this indigenous 
leadership, the wolf pack attacks stopped over night.
    And so, what we did at the center is it now equipped me to 
go around the country and look for leaders like Sister Fattah 
and her husband, and we found them in Washington, DC, and we 
trained them on this intervention model. And there was an area 
of Washington, DC, called Benning Terrace, public housing, five 
square blocks, where there were 53 murders in a five-square-
block area in 2 years.
    Eric Holder, now the Attorney General, was a U.S. attorney 
at the time, and he and the police were afraid to go into this 
area. And what we did was, after the death of a 12-year-old, 
Darryl Hall, we trained some grassroots leaders that had the 
trust and confidence of the young men. We went into that area, 
identified leaders of the Avenue and the Circle factions and 
brought 16 of them to my office downtown, and we negotiated a 
truce. And these young men went back and used their 
considerable leadership to influence the rest of the community.
    And now this is our 12th year without a gang-related murder 
in Benning Terrace. And these two young men are sitting here, 
who used to be shooting at one another, Derrick Ross and Wayne 
Lee. And now they have been working and playing a constructive 
role.
    What we did then was take these experiences and we 
established the Violence-Free Zone. We went throughout the city 
and around the country and identified grassroots leaders that 
have the influence of the kids and the respect. And we have 
applied this Violence-Free Zone going to 30 schools in six 
cities. And one of them is in Milwaukee, Wisconsin, where this 
program has been embraced. We are in eight schools. And a 
Baylor University study recently revealed that violence is down 
32 percent in the first 6 months of the program, 30 percent--32 
percent of the dropouts.
    And in George Wythe High School in Richmond, Virginia--I am 
sure you are familiar; it was one of the most troubled 
schools--we found that the expulsion rates went down 71 percent 
in just 5 months, compared to 17 percent the year before. The 
Richmond Police Department reports that arrests of students 
dropped 38 percent. They also found that, in the immediate 
neighborhood, motor vehicle thefts were down 37 percent, from 
64 to 17, in the sector around George Wythe.
    Mr. Scott. Say that again.
    Mr. Woodson. That the George Wythe School----
    Mr. Scott. The motor thefts.
    Mr. Woodson. The motor vehicle thefts went down 73 percent, 
from 64 to 17, in sector around the George Wythe School. Police 
Lieutenant Scott C. Booth said, ``I believe that the youth 
intervention aspects of the Violence-Free Zone was responsible 
for these changes because kids were remaining in school.''
    And the same in Dallas, Texas, where we have had it in the 
Madison High School, where there were 133 gang incidents and, 
as a consequence of applying this intervention, it is down to 
zero.
    And so we have demonstrated that this approach works, but 
the difficulty we have in getting acceptance is because these 
programs are being implemented by untutored people; only, they 
are being done with the cooperation of the police. And, as a 
part of my testimony, I have comments from superintendents, 
chiefs of police. Rodney Monroe, as you know, who just left 
Richmond, was responsible for the police department funding 
this program in Richmond. And now we are in Milwaukee, 
Wisconsin; Antelope Valley, California; Dallas, Texas; and 
Baltimore, Maryland.
    And so my recommendation is that perhaps some of this 
billion dollars that we spent in juvenile justice research over 
the course of 10 years that continues to focus on failure--you 
cannot learn anything from studying failure except how to 
create it. Perhaps some of these bright people can come and 
look at neighborhood interventions that are working for kids 
and then report back to you why they are effective, how they 
are effective, and perhaps give us some more knowledge about 
what we can do to reduce youth violence in America.
    [The prepared statement of Mr. Woodson follows:]

              Prepared Statement of Robert L. Woodson, Sr.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you. Thank you.
    Ms. Coleman-Miller?

 TESTIMONY OF BEVERLY COLEMAN-MILLER, M.D., UNITY CONSULTANT, 
     SENIOR MEDICAL CONSULTANT, HEALTH EDUCATION NETWORK, 
                         WASHINGTON, DC

    Dr. Coleman-Miller. Thank you for the honor to be able to 
present to you. I am Dr. Beverly Coleman-Miller. I am an 
internal medicine physician, and, in our work, we pump on 
chests in a world of great pain to do CPR. The Urban Networks 
to Increase Thriving Youth is providing CPR in a municipal 
form. We provide a road map for preventing violence in cities.
    The UNITY project is a national project that comes with 
great enthusiasm for the ``Youth PROMISE Act.'' It is CDC-
funded. It is violence-prevention-centered, believing, in fact, 
that you can prevent violence. And, as a public health problem, 
violence is preventable.
    We, as adults, have seen violence increase over time. And, 
with the stress and upset that is going to exist over these 
next few years, we suspect that violence will become an awesome 
problem in municipalities. And so, as a result of that, we are 
offering UNITY as a road map to begin to bring the people to 
the table who, in a city-wide strategy, can offer the elements 
of design that will change the face of violence in cities.
    It already has, in many cities. It saves lives. In Boston, 
in Philadelphia, in Los Angeles, in Cleveland and Tucson, the 
UNITY project has been not only invested in but supported by 
communities, from citizens who have lost their families, like 
Ms. Speight, to mayors who are requesting that we come and help 
organize their projects.
    There is a set of key strategies that the UNITY project 
offers, and those key strategies have to do with early care and 
education, positive social development, youth leadership, 
social corrections in neighborhoods, mental health care, and, 
in the system-wide approach, looking at ways the schools can be 
improved, family support services, street outreach, and 
mentoring, which has been spoken about in a number of 
circumstances.
    With more resources, cities can do more work to do violence 
prevention. If they see it as a public health issue, UNITY can 
help them in their road map to create better statistics than we 
have now.
    The greatest impact will be if it remains a city-wide 
strategy and coordinated for all members of the communities, 
rather than just administrative or criminal justice or social 
services.
    There was a city assessment that was done by UNITY that 
proved that they could prevent violence and get lower violence 
rates if they could institute it a hundred percent. It is our 
belief that, with increased resources, we can expand this 
project into other cities. The people who are involved in the 
UNITY project are people who I have watched look at violence 
over many, many years and have not used just graphs to 
determine how to approach this but, rather, visited the places 
where the victims have had to suffer through and the 
perpetrators have had to be incarcerated. And those travels 
have created a laboratory that really does focus exactly where 
violence prevention needs to occur.
    I can remember visiting a prison at one point and listening 
to a young person tell me that they can get everything they 
want from home instead of in this prison. They can get clean 
beds, and they can get great food, and they can get good 
friends, and they can get what they want. But when asked, what 
can you get from this prison that you cannot get at home, their 
answer was quite disturbing. It was: We are safe here. There 
are no guns. When we fight, we duke it out.
    At this point, to see my gray hair, knowing that in my 
watch some young people have created prisons as sanctuaries is 
rather distressing. The UNITY project is a project that works. 
And we ask for support for resources to our cities to be able 
to expand this project.
    Thank you very much.
    [The talking points of Dr. Coleman-Miller follows:]

                Talking Points of Beverly Coleman-Miller

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you very much, Dr. Coleman-Miller.
    We will now have questions with the panel. Hopefully we 
will stay close to 5 minutes. We will do the best we can.
    Let me start with Mr. Woodson.
    Have you done any cost analysis on your programs where you 
have gone in, reduced crime?
    Mr. Woodson. That is what we are doing right now. Because 
when the police department--this was an unintended benefit of 
the police department, because we were looking at the cost of 
suspensions, dropouts. For instance, in one school, the 
principal reported that every week a child was transported to 
the hospital injured in a fight, but, as a consequence of our 
intervention, it went to zero ambulance calls. We are trying to 
determine then what is the cost savings from transporting that 
child. Most of them don't have health care. So what is the cost 
to--right now we are in the process, in working with Baylor 
University, to do that cost-benefit analysis.
    Mr. Scott. And the lifetime cost for a shooting victim, 
most of whom are uninsured, gets into the hundreds of thousands 
of dollars. So if you reduce shootings, you have had a 
significant reduction in health care, you have a reduction in 
incarceration.
    Mr. Woodson. Yes.
    Mr. Scott. And what it would be virtually impossible to 
calculate is any program that significantly reduces crime will 
also reduce social service, health care, and a lot of other 
expenses. So if you can let me know as soon as you get that 
calculation done, I would like to see it.
    Mr. Woodson. Congressman, we are going to do it. And you 
know George Wythe. We only go into the most dangerous schools 
where the problem is the worst, so no one can accuse of us 
creaming.
    Mr. Scott. Now, once you have gone in and gotten a truce, 
what positive alternatives, positive choices do the children 
have? They had the choice to join the gangs. After you have 
gotten a truce, what positive activities are there in lieu of 
gangs?
    Mr. Woodson. Well, first of all, we gave them the kind of 
respect. Those two young men, one was leader of the Avenue and 
the other the Circle. Following their truce, David Gilmore, the 
housing receiver, we put them together, and their crews, 
working to clean up the community they destroyed. See, they 
were given work. And they cleaned up--they removed more 
graffiti and planted more grass in 6 months than the Housing 
Authority staff did in 4 years.
    But they also, they took their first paycheck and had a 
picnic in the community where the kids were nonexistent on the 
street because they were fearful. So what we also did is we 
gave them responsibility for someone else. That is reciprocity.
    Most programs treat these young people as a client, where 
they are always the object of services or gifts. And these 
young men can't be coerced into changing or bribed into 
changing; they must be inspired to change by giving them 
respect. We invited them to our banquet, for instance, and said 
you can't come with baggy pants and all, so they put on 
business suits. We brought 30 business suits. We had 90 
business suits we brought them in 3 years. We got them their 
driver's licenses. So, in other words, what we did, 
Congressman, is helped them to be responsible for others.
    And Teak Gruton, who was the area DEA administrator at the 
time, came to my office with three officers and said, ``Bob, 
when the DEA goes in and creates a raid in Benning, the crime 
gets dispersed into contiguous communities. But our field 
office tells us, not only is crime down in Benning, but it is 
also down in the neighboring communities. So you all are curing 
the problem.'' They are powerful leaders.
    Mr. Scott. Thank you.
    Mr. Trubow, you have indicated that you can do a risk 
assessment. How accurate is that risk assessment? I mean, do 
you do a control group to show that the people you have 
identified are much more likely to commit a crime than a 
similar group that was not assessed?
    Mr. Trubow. Yes. What we do is we weight risk factors based 
on local schools. So we don't use the same weighted risk factor 
all over. And we use logistic regression modeling, okay, very 
scientific modeling, to predict which children are most at 
risk.
    Mr. Scott. Well, some of the communities we have 
identified, some States in terms of incarceration rates, an 
African-American community can get up to 4,000 per 100,000. And 
if you can reduce that to 1,000 per 100,000, which would be 
about 50 more than the worse rate on earth, the United States 
at 700, you would be spending--and then you figure about 25 
percent of the population of the children, you would be 
spending about $3,000 per child per year that you could save in 
reduction.
    And if you could target that money at, say, the one-third 
that are at risk, you are up to about $9,000 per child per year 
that you could spend just by reallocating what you are spending 
now. So if you can do a risk assessment this really targets 
where the problem is, you could really load up on that 
community to significantly reduce crime.
    So my question is, how accurate is this assessment?
    Mr. Trubow. Well, the reason that it is accurate, once we 
create the model----
    Mr. Scott. How accurate is it?
    Mr. Trubow. I would have to send you the statistics.
    Mr. Scott. Because, let's say, if you have a group of 100, 
if you can tell which 20 are most likely to commit crimes, then 
you can load up all the money on that 20.
    Mr. Trubow. Right. That is exactly right.
    Mr. Scott. And then if half of those who would have 
committed a crime--that is what I am looking for. And you are 
going to get me the numbers.
    If you have identified somebody at risk, how accurate, how 
effective is your intervention?
    Mr. Trubow. The one thing I want to say is we give a risk 
index. So we will tell you, this child has a 100 percent 
probability of dropout, 100 percent. And anything to me over 40 
percent is high-risk. But if I say to you, this child is over 
age, they are reading 3 years below grade level, they are 
truant, they have suspensions, if I give you 21 risk factors 
and they are giving you 100 percent probability, then what we 
do is this: We attack those factors of risk. We try to remove 
those risk factors, and then we see if the score goes down.
    If we can take a child who is 100 percent probability for 
dropout and we can reduce it to 30 percent or 40 percent, then 
we feel we have made an effective intervention.
    Mr. Scott. Have any of these interventions been analyzed to 
show that you actually have reduced the incidence of crime?
    Mr. Trubow. Yes.
    Mr. Scott. Okay. We would like to see those studies. That 
could be very helpful to us.
    Mr. Trubow. Yes, I will send it. It was done in Monmouth, 
New Jersey. It is the Behavior Monitoring and Reinforcement 
Program. I will send it to you. Thank you.
    Mr. Scott. Dr. Krisberg, in terms of reducing the incidence 
of crime, what effect do longer sentences have in scaring young 
people out of committing crime?
    Mr. Krisberg. There is overwhelming research that longer 
sentences have a minimal effect, if at all. I mean, the classic 
example would be in California, which has the highest length of 
stay in its youth correctional system of any State and has a 
violence and gang problem that would rival any State.
    So, again, there is no consistent issue. You can take 
somebody out of circulation for a little bit of time, but, 
unlike adults where we could lock them up for 20, 30 years, 
with kids we are talking about a relatively small period of 
time. So, again, we have invested in tougher penalties, but 
they don't seem to be making an impact.
    And, you know, I always like to explain to people in terms 
of, think of a bunch of kids hanging on the street corner. Do 
you think their conversation is something like, ``Well, did you 
see what Scott's Committee did last week, increasing those 
Federal penalties?'' I mean, that is not what they are talking 
about. Penalties are not what they are responding to. They are 
responding to what is going on in the street and what is going 
on in their lives. And if you don't address that, you know, the 
rest of it is a very costly strategy.
    By the way, I would add to the Chief's comments. Chicago 
CeaseFire, which I have had an opportunity to look at, has 
excellent research. It incorporates a public health model, 
incorporates a lot of the elements you talked about. And I 
would really urge this Committee to look at that program.
    Mr. Scott. Thank you.
    My time is more than expired. The gentleman from Texas?
    Mr. Gohmert. Thank you, Chairman Scott.
    And I really appreciate all of your dedication to a similar 
goal, and the same goal perhaps, of reducing violence among our 
youth. I think we are all headed for the same goal. Maybe some 
different paths toward getting there and some disagreements on 
the way there, but I really appreciate the dedication that each 
of you has.
    One of the things that I noticed in my years on the bench 
as a district judge, handling thousands of felony cases, began 
to eat away more and more with me, when you talk about risk 
factors, Mr. Trubow. The thing that kept occurring over and 
over, I am seeing people that never had a relationship with a 
father, over and over. And, you know, you want to blame 
somebody, it is kind of hard to blame the mom. I mean, they had 
their hands full, doing everything they could to give them 
food, shelter, and, you know, maybe working more than one job. 
It just is a tough situation. And we realize there are factors 
and issues about fathers being in prison. Obviously it is hard 
to be there for your kid if you are in prison.
    But I have gotten some statistics here. Back in 1990, clear 
back 19 years ago, almost 5 million children lived in 
neighborhoods in which single mothers were head of household in 
more than half of all families in those neighborhoods, and 80 
percent of those children were African-Americans. Then coming 
up more recently, about 27 percent of White children do not 
live with their biological father, 35 percent of Hispanic 
children, and 66 percent of African-American children. And, you 
know, that seems to coincide with what I found as a judge.
    Let's see, more recently, 2000, among White mothers, about 
27 percent of all births were outside of wedlock; among 
Hispanic mothers, about 43 percent; African-American mothers, 
about 70 percent.
    And, you know, what I saw is not all those who don't get in 
trouble; I saw the ones that got in trouble. And there for 
about a 3-month period, I kept a little mark of people who had 
no relationship to speak of with their father, and it was right 
about 80 percent of the people I sentenced. Whatever age they 
were, regardless of race, I was getting people mainly who had 
no relationship with their father.
    So I have wondered--is it ``Trubow''?
    Mr. Trubow. Yes, sir.
    Mr. Gohmert. Is that one of the risk factors that you 
consider the all?
    Mr. Trubow. Yes. We look at risk factors across four 
ecological domains: individual; family, which you pointed out; 
community; and school. So we use all four.
    So you are correct. If a child shows up to school who is 5 
years old, doesn't have a father, maybe mother was 16 years 
old, that is a risk factor. All right? Whereas another kid 
shows up at school, he has both parents, and he is ready to 
learn, he is ready to learn. So the minority, economically 
disadvantaged child is at a disadvantage at the get-go.
    Neither one of them are gang-bangers, neither one are 
violent. They are 5 years old. It is not the child's fault that 
he doesn't have a father, right? And because their ZIP code 
puts them in a high-density crime area neighborhood.
    So that is why those school risk factors--education is the 
great equalizer. So if that child does not learn how to read 
between kindergarten and third grade, they start to become 
alienated. And by fourth, fifth, sixth grade, we start to see 
behaviors, we start to see attendance change. And then other 
factors that you so wisely pointed out, they compound the 
problem.
    Mr. Gohmert. Well, it goes to what Chief Bradley was 
talking about, too, with Head Start. And then I wonder beyond 
Head Start, because, you know, I have been to lots of Head 
Start programs and see the effect they are having on kids, and 
it is very touching and moving at times, just inspiring too, to 
see these grateful kids. But then you wonder, now, how many of 
those--because I really don't know, and I don't know if there 
have been studies done--how many of those that go to Head Start 
maybe have two parents or have a better home situation and that 
is why they are there at Head Start and not out missing an 
opportunity at Head Start. And I don't know if that has been 
studied or not.
    Do you know, Dr. Krisberg, if some study like that has been 
done?
    Mr. Krisberg. Yeah, probably the most thorough research on 
Head Start has been done in the Michigan program. And this was 
specifically targeted at low-income kids with lots of 
disadvantages. And Head Start still produces a very positive 
benefit for those kids, as well. The original Head Start 
programs were targeted at poor kids, as you know.
    Mr. Gohmert. But I wonder about the kids who don't end up 
going to Head Start. You know, what is their situation? Why do 
we not capture them into the Head Start program? What are we 
missing there that might get them there, that increases the 
chance of them not getting in trouble? Do you know?
    Mr. Krisberg. Well, resources are key. If you have more 
Head Start resources, you are going to get more families 
willing to enroll in them.
    Mr. Gohmert. Gotcha.
    Mr. Krisberg. I mean, the demand for quality child care in 
this country is almost unlimited. So as much money as we can 
pour into it, you are going to have parents who are going to 
step up and want to take advantage of it. So I think that is 
the issue.
    The other issue is, in my view, outreach. One of the most 
interesting programs I am seeing around the country are 
pediatricians, even OB/GYN doctors, who identify families at 
high risk almost at the moment of birth and begin directing 
those families into the visiting nurse programs that the Chief 
was talking about.
    So I think if we could set up a system in which we could 
identify, particularly through the medical public health 
system, families at risk and begin channeling them to these 
very cost-effective resources, we would save a ton of money.
    Mr. Gohmert. Well, you had mentioned that, you know, 
adolescents make bad decision. At some point in their lives as 
they grow, do you acknowledge that we end up with some folks 
who are truly antisocial personalities, used to be called 
sociopaths, in the legal system?
    The test would be they know right from wrong, could conform 
their conduct to the requirements of the law, they just choose 
not to. Do you acknowledge that personality too?
    Mr. Krisberg. Absolutely. In the work I do with kids who 
are locked up, I certainly run across those kids. But more 
frequently I come across kids who are suffering from severe 
undiagnosed mental health issues; who, when the door is closed, 
turn to me and say, ``You know, Doc, I am hearing voices,'' I 
am having severe mental health issues, and nobody in the system 
is picking that up.
    So, yeah, I do agree there are the sociopaths you are 
talking about, but I also think we have to do a much better job 
of identifying kids who are suffering from significant mental 
health issues and beginning to respond to the point where it is 
still fixable.
    Mr. Gohmert. And it also gets over into the situation that 
Dr. Coleman-Miller--you know, there are people you see and you 
want to see that they are taken care of and get assistance and 
a push in the right direction. But what do you see in 
communities that has been the most effective groups or efforts 
at getting them plugged in where they feel the respect that Mr. 
Woodson was talking about?
    Dr. Coleman-Miller. I think part of--over the 40 or 30 
years that I have been looking at this, I think probably the 
acknowledgment of their personal family is probably primary. It 
is that someone recognizes that there is a king under that 
hood. And when they do, there is behavior change, and when it 
is consistent and it is real.
    Secondly, there are advocacy agencies. There is the Boys 
Club, which I often hear spoken of and supported by people with 
gray hair, who say, I would never have been the same had it not 
been.
    And, by the way, I left out grandmothers. Because I have 
figured out there is a huge number of people, probably even in 
this room, who are alive because of them and who feel their 
greatness.
    But school systems have been definitely tested more than 
once. And when they are tested to the point where they are 
overwrought, schools have a difficult time sometimes being able 
to focus young people into their greatness. And so dropouts is 
the sequella of that.
    But the truth is that there are people who step in 
everyone's path. And today we stepped in many young people's 
paths and ignored them, didn't even speak to them, marked them 
absent just by not looking at them. Those are the kinds of 
things that communities need some education about, some support 
in. And that is what the UNITY project is beginning to do.
    We are literally changing language. Today I heard four 
different languages spoken right here at this table. One of 
them talked about crime. I talked about a public health 
disease. Others talk about criminal justice. This communication 
in cities is difficult, and so it needs to have some language 
discussion. Police call it violence. Doctors call it 
intentional injury. Totally different index in that textbook.
    So, for us, we know that the UNITY project, one of the 
things we have to really get to is communication and be able to 
get cities to talk to each other on different levels.
    Mr. Gohmert. Well, I haven't gotten to ask anything of Mr. 
Woodson. I appreciate the new chairman, but we were taking a 
little more flexibility beyond the 5 minutes because it was 
just Chairman Scott and me.
    But, Mr. Woodson, you are an inspiration with what you have 
been able to accomplish, just fantastic. And I had a note that 
Center for Neighborhood Enterprise, or CNE, is a faith-based 
organization. Is that correct?
    Mr. Woodson. No, sir. It is a nonprofit, community, 
national organization that assists organizations, including 
faith-based groups.
    Mr. Gohmert. Okay. So you assist faith-based groups?
    Mr. Woodson. Uh-huh, yes.
    Mr. Gohmert. But doesn't it seem to you that that is also 
an important component, that some of the faith-based groups 
seem to be motivated by love and people feel that?
    Mr. Woodson. Absolutely. What reaches these young people is 
not necessarily a program or an appeal; it is when you make a 
lifetime commitment to them. Most of the grassroots leaders 
that we support, they are not in the lives of these young 
people for the term of a grant or conditions of a contract. And 
if money were to be withdrawn, they would still be in their 
lives. And so, that is what we are supporting around the 
country.
    Mr. Gohmert. Do you have any copies of your book here? I 
would like to be a good customer and purchase one of those.
    Mr. Woodson. No, sir, but I will make certain that you 
obtain one.
    But most of what I did with the second book is go and find 
out neighborhood leaders like the Fattahs around the Nation, 
and they bring people the young people whose lives they have 
touched and transformed. I put them at a table and let them say 
to us professionals what changed them and why did they change 
and what can be done. Too much is targeted to them and not 
solicited from them. What do they consider important to 
transform their lives?
    Mr. Gohmert. Did you find that people, the young people you 
dealt with, also had a much higher percentage of the group who 
had no relationship with a father so they didn't get the 
respect you were talking about?
    Mr. Woodson. Yes, sir. My dad died when I was--he was sick 
from the time when I was 7, and he died when I was 9. So I was 
raised by my mom in a high-crime area with five children. I am 
the youngest of five.
    Mr. Gohmert. So what kept you from going----
    Mr. Woodson. There were two things. First of all, the kind 
of values that she communicated to us. She had to work all the 
time. But also my group, the young men that I chose--you cannot 
grow up in the inner city unaffiliated. You cannot. So I am 
against people saying we need to abolish gangs. What we need to 
change is the criminal behavior of the group.
    When Wayne and Derrick decided to choose peace instead of 
violence, they didn't stop associating with their crews. It is 
just that these crews became venues for change. They used their 
influence with younger men to set up football teams, that 40 
young people showed up in 1 day because Wayne and Derrick 
called them.
    So they are indigenous leaders, and we need to learn how to 
make better use of these indigenous leaders that the kids seek 
out, and they become surrogate fathers. Some of these fathers 
will never be active with their children, and therefore we must 
find surrogates for them. And these young adults indigenous to 
these communities ought to be looked at as surrogate fathers.
    Mr. Gohmert. Thank you very much. I appreciate you all 
being here and all that you do outside of here especially. 
Thank you.
    Ms. Jackson Lee. [presiding.] The gentleman's time has 
expired. And I am delighted to acknowledge that the Chairman 
has returned to the room. And I will yield the gavel for a few 
minutes and return it to the Chairman.
    Let me, first of all, thank him for what I think is an 
enormously important hearing. And to get the ball rolling as 
early as we are doing speaks to the epidemic proportions of 
which we are dealing with.
    And I like the terminology of Dr. Beverly Coleman-Miller. I 
think it is an epidemic. I think it is a disease. I think it is 
a health issue. I think violence kills. It is a health issue, 
certainly for a lot of our minority youngsters, Hispanics 
included, where the death toll on young men starts at 12, 
starts earlier than that. The weekends that I return to 
Houston, it is the 17-year-old that shoots a 40-year old. And 
it is a crisis.
    I would like to also thank the Chairman for the pending 
bill. That has been, I think, something we have discussed over 
the years. The Chairman and I have worked together from, I 
would like to say, more than a decade ago when we began a tour 
around the country, speaking to attorney generals about how 
they could stem the tide of youth violence.
    I am from Houston, the fourth largest city in the Nation, 
and there is an epidemic there, frankly. And so I don't think 
anyone should hide their face in shame. So I want to, across 
the board, thank all of the panelists.
    And, as a moment of personal privilege, I would like to 
highlight two youth that are in the room, and if they could 
stand, Mickey Leland interns who are here in the room, have 
taken a different path. If they would stand and be 
acknowledged. They are here listening, and hopefully they will 
be the implementers of change. And many of you may have known 
Congressman Mickey Leland. He was a change-maker. So we thank 
you very much for being here.
    Let me pose my questions, sort of, in a provocative manner. 
I said it was an epidemic. I think the shortchanging of solving 
this problem is money. And we have struggled against the tide 
of incarceration versus rehabilitation or intervention. And 
maybe we will get it right.
    Chief Bradley, you may know my chief, Chief Harold Hurtt. I 
know you are certainly aware of my former chief and mayor, 
Chief Lee P. Brown, with community-oriented policing. I bet you 
have used community-oriented policing and have actually seen 
that, if it is used right, you can touch the lives of adults. 
They know the cop on the beat; they are ready it tell you who 
the person was, who the perpetrator was. They even have the 
backs of the police officers that they get to know.
    And I think we have to do something on the order of a 
Marshall Plan for the opposition and the fight against youth 
violence, if you will. And we have to be in the fight. And this 
means it is going to be a lot of pulling of the teeth.
    But last week I sat down with the faith office, my 
colleague and I did, of the new President. And I think he has 
gotten it right. It is not biased, it is going to be open. It 
is going to be looking for solutions, and that is what we need 
to do.
    So let me pose one of the issues that I think--and I 
believe in using tools of legislation to be helpful. A lot of 
States incarcerate children with adults. I think that is a 
crime in and of itself. And I intend to drop legislation to 
prohibit that and to deny States Federal funding. I don't care 
if they get a cardboard box, and separate the community.
    A story that was just told in the national newspaper of a 
young woman, 16 years old, who was incarcerated for meth, was 
incarcerated with adults. She is 26. She has spent 10 years on 
the street, based upon that limited experience. And she was 
incarcerated for being a truant, a runaway. Those are childhood 
activities, and we should treat them like a child.
    So I would appreciate your comment on that, Dr. Krisberg. I 
will just take an answer from everyone very quickly.
    And my second question is--I would like to offer them both 
at the same time--you know, when we started the crime bill in 
the 1990's--and I was not here, I think, at the beginning when 
that vote was taken--and in that was what we call--in fact, I 
was on local government--something called midnight basketball 
that people made an absolute joke of. Well, I want you to know, 
I was on the ground, I was in Houston. And I took up the cause 
of gangs as a member of the Houston City Council. I met with 
gangs, sat down with them. And I did something called midnight 
parks. We had to get volunteers, we had to get the park workers 
to consent to keep the parks open, so that they would have some 
place to come.
    And it was around the theme of ``bad acts happen'' with 
unattended--and I don't ignore the intervention and Head Start 
for the early folks, but I know that we are dealing with the 
folk that are out there right now. And I happen to think there 
is something to having a place to go at midnight, 10 o'clock at 
night for those whose mindset you have to alter. You can't get 
them right away. They are going to be out at 10:00, at 11:00, 
at 12.
    Chief, you might comment when your hottest nights or 
hottest hours are.
    And I am going to go down the row on the two questions.
    And I bet you either it is Friday night and Saturday night, 
but it is those late night----
    Chief Bradley. Or Thursday.
    Ms. Jackson Lee. Or Thursday night, but it is certainly 
dark. There are some brazen folk in the midday, but there is 
certainly dark.
    So maybe we have to get back and think creatively and not 
be embarrassed by someone saying, well, you are certainly 
throwing away money with midnight basketball. I don't care what 
you call it, but if you think of a Marshall Plan and ending 
epidemics, you have to find a way to pierce the veil of 
stupidity. And what is the stupidity? Of us ignoring what is 
happening.
    Dr. Krisberg, on the question of incarcerating young people 
with adults?
    Mr. Krisberg. Yeah, I would like to make a couple of quick 
comments.
    First of all, this Committee should know that three-
quarters of the persons under age 18 who are sent to prisons 
and jails are African-American males--three-quarters.
    Ms. Jackson Lee. A frightening number.
    Mr. Krisberg. And the rest of them are largely Latino. 
There are very few White youth under the age of 18 who get put 
in our adult prisons.
    Number two, the recent events in New York City at Rikers 
Island, in which the guards organized other inmates as prison 
gangs and resulted in the murder of an 18-year-old--and this, 
again, in New York City, not some backwater place, needs to 
give us pause.
    Quite candidly, in this past Administration, the Office of 
Juvenile Justice walked away from its responsibility----
    Ms. Jackson Lee. Absolutely.
    Mr. Krisberg [continuing]. To enforce the Juvenile Justice 
Act. And I hope we strengthen that.
    The last thing I would say is there are proven models that 
work with youth who commit violent crimes. So, while I am all 
for prevention, you know, I would emphasize places like 
Missouri and Massachusetts and a number of other places that 
are producing very good results with kids who have committed 
violent crimes.
    Ms. Jackson Lee. Thank you.
    Mr. Trubow?
    Mr. Trubow. Yes, thank you. I just wanted to address what 
you said about truancy or runaways and locking them up.
    My State of Washington was the first State in the United 
States to rule, 2 weeks ago, that any child who is cited for 
truancy be represented by a lawyer. Fourteen thousand cases 
were reversed. These are first-time truancy citations. Only the 
State of Washington is the only State that has ruled that 
truancy needs to be treated as part of a child's due process.
    So, obviously, to put a child in jail with adults for 
truancy or runaway is a violation of a child's due process 
under law. Because a judge can order a child to be held in 
almost every State in the country without a child having an 
attorney to represent them. And this is really--you brought up 
a very important point.
    Lastly, in terms of truancy, and what happened the judge 
also said in the State of Washington this made this landmark 
ruling was it is time for schools to try to solve the root 
causes of truancy in the school. It is not something that the 
courts can solve. Instead, the child is vaulted from the school 
into the judicial process, in with children that might be 
serious criminal offenders.
    So I think your point is well-made.
    Ms. Jackson Lee. Thank you.
    Chief Bradley?
    Chief Bradley. I believe a root cause, if you look at 
statistics, 73 percent of our kids have educational 
disabilities, and 60 percent of our kids, mostly African-
American and minority youth, have problems adjusting to school. 
They are designated as special ed. And once they get into a 
special ed program, they misclassify a lot of kids who have 
other problems. When they get into school, especially African-
American males, they don't want to be there in the first place. 
And what it is, they don't ask them why they don't want to be 
there.
    I had a kid one time who didn't want to go to school 
because of peer pressure because he didn't have a bookbag and a 
pair of sneakers. The officer, after four times of going to the 
same house, asked the kid, ``Why? I keep coming here every 
day.'' He said, ``I don't have a bookbag and sneakers.'' The 
officer went and bought him a bookbag and sneakers; the kid 
graduated from school.
    So there are a lot of things, like I said, where 80 percent 
of our job is social work, 20 percent is the stuff you see on 
TV.
    Ms. Jackson Lee. Can you speak to that midnight activity?
    Chief Bradley. I will get right to that. The midnight 
activity, what we did to adjust it, we had a different program 
with curfew. The guys at curfew, we had the faith-based 
organization open up their church, and we did counseling 
sessions at night.
    Ms. Jackson Lee. And it works. I mean, I am not telling you 
what to do, but what you are saying is----
    Chief Bradley. It works.
    Ms. Jackson Lee. It works. Keeping them in those hours, 
where----
    Chief Bradley. Right. Your program, it works. It gets them 
in place. Plus, it is a safe zone. They can go in there and 
know they won't be shot or they won't be killed. Okay? So those 
programs do work.
    Ms. Jackson Lee. Appreciate it, Chief.
    Mr. Woodson. In Milwaukee, Wisconsin, one of the reasons we 
are able to maintain those numbers is because the Running 
Rebels organization operates a basketball league that recruits 
from around the eight schools. It is the only venue in the city 
where all the kids are playing on sports and mixing together. 
And so it has been a very important tool to reduce conflicts 
because, as kids play together, they are not fighting. So you 
are absolutely correct that athletics and entertainment is a 
very important tool.
    Ms. Jackson Lee. And faith programs or others that could 
host young people at those odd hours is not a frivolous act.
    Mr. Woodson. Absolutely. And what these young men do is, 
when they have their sports activity, they make sure that they 
mixed kids from different neighborhoods so that they get a 
chance to know one another and have sports activities together. 
So this is intentional. So you are absolutely right. It is 
crucial in the arsenal of reducing kids' violence.
    Ms. Jackson Lee. Dr. Beverly Coleman-Miller, if you could 
speak to the incarceration issue of a young person with an 
adult population.
    Dr. Coleman-Miller. Clearly the young people who--this is 
being redefined, because 14 years old now, after that super 
predator act, became the adult. My statement at that point was 
we should all be up all night to make sure this never happens 
again. And, as a result of it, we have now laws in States that 
allow 14-year-olds to be in adult prisons, incarcerated.
    The only way that is going to change is if the public 
starts to be able to see that these perpetrators at 14 still 
have a way to correct their behaviors.
    Ms. Jackson Lee. Some way of redemption.
    Dr. Coleman-Miller. They have lost faith in that. And they 
are, therefore, permitting this 14-year-old to go to prison--
and 12. And they are judging it on such things as size, 
attitude. And they are getting very little mental health care 
in the midst of that. And so there are many things that are 
happening right now that States are doing based on fear. These 
are heinous crimes that some of these young people have done, 
and the statements are supported by the policies that have been 
put in place by fearful people.
    I want to just mention also that this basketball----
    Ms. Jackson Lee. Specifically late-night.
    Dr. Coleman-Miller. At 12 midnight we also brought people 
to take their blood pressures. We wanted to know if their 
girlfriends who were visiting with them had prenatal care. We 
wanted to know if there were any job interviews that could 
happen at midnight. So that there were huge resources brought 
to their side, so that when they sat down to take a break and 
sweat a little bit, there was just as much sweat coming in from 
the back when they were being asked questions that we just 
couldn't catch them to ask any other time. And they responded, 
because they understood for the first time that, if you can 
listen, you can see improvement. And we just watched that 
change.
    So this is the kind of thing that the UNITY project wants 
to do to prevent violence from ever happening, as opposed to 
treated after the fact.
    Ms. Jackson Lee. The gentlelady's time has expired, meaning 
mine, not yours. And I would be happy to yield to the 
distinguished Chairman for his second round of 5 minutes.
    Mr. Scott. [presiding.] I would like to thank the 
gentlelady from Texas.
    I just had a couple of other questions. And, one, just 
following up, Dr. Coleman-Miller, you are recommending a public 
health strategy toward violence prevention. Do you have studies 
that show that it works?
    Dr. Coleman-Miller. Absolutely. We have studies that have 
shown that violence is a learned behavior and that it can be 
unlearned. And we have watched this occur over many different 
circumstances. You know that smoking is preventable, and we saw 
in our lifetime people unlearn smoking. We saw seatbelts being 
used; people learned an unlearned behavior.
    So learned behavior has proven time and again to be able to 
be unlearned over time. And the statistics have been quite 
significant for violence prevention efforts. In these cities in 
particular--Boston, in particular, and Los Angeles, where they 
have been able to reduce the number of violent acts secondary 
to learning alternative behaviors, which has been--and there 
are many documents. If it you would like, we can send you the 
big pile of documents proving that learned behavior can be 
unlearned.
    Mr. Scott. And can you avoid learning it in the first 
place?
    Dr. Coleman-Miller. Which is why we are starting the UNITY 
initiative and trying to make sure that--our tolerance for 
violence right new is quite high in most cities. And that level 
of tolerance means that we have to begin right now, during a 
very turbulent time in our country, to be able to teach young 
people who witness violence, young people who are perpetrators 
of lesser crimes, who are surrounded by violence, they have to 
learn other ways to handle it, alternative ways.
    Mr. Scott. Well, and you have studies that show that the 
strategies work?
    Dr. Coleman-Miller. Absolutely. And we will be happy to 
present them to you.
    Mr. Scott. Thank you.
    And, finally, Mr. Bradley, you indicated that, once they 
join a gang, it is hard to get them out.
    Chief Bradley. Yes.
    Mr. Scott. What does that say about what our strategy ought 
to be in terms of reducing the incidence of gang membership and 
gang crimes?
    Chief Bradley. What we could do is basically teach our kids 
good socialization skills. A lot of times, it is a call for 
help. When they come in, like Head Start, teach them good 
structure, teach them how to interact with each other.
    People talk about gangs like it is something really novel. 
Every Sunday during football season we see a gang on TV of 22 
every day, but they are focused on something that is real 
positive. What we are trying to do is get our kids focused on 
something positive where we could change a lot of behavior.
    We worked with former gang members in Newark, the Street 
Warriors, when we had a lot of violence, uptick in violence. We 
work with them, they talk with youth, got them steered in the 
right direction.
    So you get the socialization skills, get them focused on 
something positive, have the resources and the programs to give 
them different resources, after-school programs, teaching them, 
making them employable, things of that nature. We can steer our 
kids from gangs and also give them viable alternatives not to 
get into gangs. So it can be done.
    Mr. Scott. Thank you.
    I want to thank all of our witnesses for their testimony.
    Are there any other closing comments that people want to 
make?
    I want to thank you for your comments. The Members may have 
additional written questions, which we will forward to you and 
ask that you answer as promptly as you can in order that the 
answers may be part of the record.
    And, without objection, the hearing record will remain open 
for 1 week for the submission of additional materials.
    Again, I want to thank our witnesses.
    And, without objection, the Subcommittee stands adjourned. 
Thank you.
    [Whereupon, at 4:37 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Louie Gohmert, a Representative in 
 Congress from the State of Texas, and Ranking Member, Subcommittee on 
                Crime, Terrorism, and Homeland Security

    Thank you, Chairman Scott.
    This is the first hearing of the Crime Subcommittee this Congress. 
I would like to welcome our newest Members to the Subcommittee. Judge 
Ted Poe of Texas will serve as our distinguished Deputy Ranking Member. 
Congressman Bob Goodlatte of Virginia, who is a senior member of the 
Full Judiciary Committee, joins this subcommittee. And Congressman Tom 
Rooney of Florida will serve this subcommittee and this Congress with 
distinction, I'm sure. I look forward to working with you three as well 
as our new colleagues who are joining the Majority.
    Although some of our colleagues on other subcommittees may not 
admit it, the Crime Subcommittee is traditionally the busiest 
subcommittee of the Judiciary Committee. We meet often because Congress 
has an important role to play in a developing policy and legislation 
regarding the criminal justice system, the fight to defeat terrorism, 
and the effort to keep the homeland secure.
    Youth violence is one of the most challenging issues facing our 
nation. Although we have done much to reduce the overall level of 
violent crime across the country, violence among youth--either as 
individuals or as members of organized criminal gangs--has been a 
difficult problem to solve.
    Today's hearing on Youth Violence is certainly timely. As many of 
you know, James Fox, a criminology professor at Northeastern 
University, recently published a study that found a nationwide 
``surge'' in gun-related homicides involving young black males.
    Specifically, the study found that the homicide victimization rate 
for black males aged 14 to 17 increased nationwide from 2002 to 2007 by 
31 percent. The number of black male juveniles accused of murder rose 
by 43 percent over the same time frame.
    Paradoxically, the study covered a time when the nation saw an 
overall decrease in violent crime, including a 1.3 percent decline in 
murders in 2007.
    The Fox study stated that cuts in federal support for policing and 
youth violence prevention may be partly responsible for the resurgence 
in homicide, especially among minority youth. In the study, Professor 
Fox urges increases of federal funding for crime prevention and crime 
control, in particular the COPS program and juvenile justice 
initiatives.
    The study predictably gained a good deal of media attention, 
especially in the cities and areas highlighted in the report. Along 
with this media attention came some criticism that the study 
misrepresents trends in the murder rates among African American youth.
    In testimony before the Senate Judiciary Committee at a January 
hearing, Dr. David Muhlhausen of the respected Heritage Foundation 
wrote that the ``surge'' described by Professor Fox and his research 
team was overstated.
    Dr. Muhlhausen wrote that ``to put this `surge' in proper 
perspective, policymakers need to understand that the years used in 
this comparison were selected for their dramatic effect.'' Muhlhausen 
wrote that it was necessary to view the violent crime rate over a 
longer period ``to obtain a balanced perspective on homicide rates of 
young males.''
    Dr. Muhlhausen advocated an approach where violent crime trends 
were followed over a thirty year period--about a generation--from 1976 
to 2007. Taking this longer view, he notes that the 2007 level of black 
homicide victimizations--a year which is the high point of the seven 
year period studied by Professor Fox--is dramatically lower than the 
1993 level.
    Further, Dr. Muhlhausen noted that the homicide victimization rate 
of 14- to 17-year-old black males decreased by almost 60 percent from 
1993 to 2007--a decrease from 47 homicides per 100,000 in 1993 to 19 
homicides per 100,000 in 2007.
    Dr. Muhlhausen also noted that the upward trend in black homicide 
victimization rates for the period studied by Professor Fox did not 
hold for older black males. From 2002 to 2007, the homicide 
victimization rates of black males aged 18-24 and 25 and older 
decreased by 2.5 percent and 1.4 percent, respectively.
    I recite these statistics not to make light of the Fox study, but I 
do want to inject some perspective into the discussion that we will 
have today. I think that it is important to note that most indicators 
demonstrate that America is overall a much safer place than it was 
fifteen years ago.
    Studies by Department of Justice's Bureau of Justice Statistics 
indicate that since 1994, the national rate for violent crime--
including robbery, sexual assault, and murder--decreased nationally, 
reaching the lowest level ever recorded in 2005. Further, the most 
recently published FBI Uniform Crime Report or UCR indicates a 
continued decrease in the rate of violent crimes nationally.
    Paradoxically, the UCR also showed the rate of violent crime 
increased in smaller cities, including Austin and San Antonio, Texas. 
There is also this unsettling increase in youth crime. These are the 
anomalies that I would like to hear discussed.
    Further, I hope that the discussion involves more than merely 
advocating more federal funding for state and local law enforcement. In 
the last ten years, Congress committed significant resources to 
programs like the Byrne JAG grant program and COPS Office at the 
Department of Justice.
    Since 1999, Byrne/JAG grants have totaled more than $ 8.4 billion 
in funding (an average of $840 million per year). And in the last ten 
fiscal years, the COPS program has awarded more than $7.49 billion to 
over 13,000 law enforcement agencies.
    Although much of this money has gone to good use, there are a 
number of studies and Inspectors General reports that indicate that 
some cities and localities have misused funds by not complying with 
grant conditions. Other studies have shown that federal funding has not 
led to an increase in the overall spending by local law enforcement but 
has merely replaced state and local funding for police and law 
enforcement agencies.
    The so-called economic stimulus passed by the House includes $4 
billion in local law enforcement funding, and the Senate bill 
reportedly contains $3.5 billion for that purpose. Nonetheless, I am 
concerned that the overall funding in both bills represents an 
irresponsible increase in federal spending of money we do not have that 
will so overwhelmingly overload the coming generations with debt, they 
will be prevented from ever getting to enjoy the American Dream of 
economic freedom.
    Rather than this huge increase in federal funding, we should 
support grassroots organizations and community groups, including faith-
based groups who are motivated by love and care rather than federal 
money, that work from the ground up to prevent crime and rehabilitate 
individuals and neighborhoods.
    I look forward to hearing the testimony of the witnesses. I am 
especially interested in the testimony of the witnesses who represent 
community groups and faith-based organizations. I believe that the 
Members of the Subcommittee will benefit from your expertise and 
recommendations for best practices.
    I yield back the balance of my time.

                                <F-dash>

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary

    The Fox study on trends in youth violence is commendable for its 
in-depth, no holds barred analysis of the horrendous picture of gun 
violence in this country, an issue to which this Subcommittee has 
devoted extensive examination and legislative initiatives. Homicide is 
the leading cause of death for black males between the ages of 10 and 
24, and the second leading cause of death for Hispanic males of that 
age group. More Americans are murdered each year by gunfire than were 
killed in 9/11.
    Among the important questions this hearing will examine is, ``how 
did we end up in this place?''
    As Professor Fox shows, we were lulled into complacency by the 
sharp decline in gun violence during the 1990s, and since that time our 
priorities have moved away from fighting street crime.
    Virtually no major city is immune from the surge in youth and gang 
violence. From Houston to Salt Lake City to Los Angeles, the increase 
in gun violence committed by juvenile black males and against juvenile 
black males is astounding.
    Houston, with the lowest unemployment numbers in the country and 
highest job growth rates, saw a 139 percent increase in the number of 
black suspects in Houston homicides between 2000 and 2007, the largest 
percentage increase among 28 large cities studied by Professor Fox.
    Economic disparities are a critical component of this growing 
trend. Professor Raymond Teske Jr. of Sam Houston State University 
writes in the Houston Chronicle, ``If the victims were white middle 
class or upper-class youth, implementing a plan of action would be 
forthcoming immediately.''
    This hearing will underscore the need for federal initiatives that 
restore law enforcement funding and fund programs that target at-risk 
children in a long term approach to preventing crime. As Professor Fox 
says, we can ``pay now or pray later.''

                                <F-dash>

Prepared Statement of the Honorable Maxine Waters, a Representative in 
  Congress from the State of California, and Member, Subcommittee on 
                Crime, Terrorism, and Homeland Security

    Mr. Chairman, thank you for organizing today's hearing to examine 
``Youth Violence: Trends, Myths and Solutions.'' I believe that making 
this issue the subject of our first Crime Subcommittee hearing of the 
new session demonstrates your commitment to ending policies that don't 
work and legislating new policies that data shows can and will steer 
juveniles away from criminal activities and into productive members of 
our communities.
    The repeated outbreaks of senseless violence make it painfully 
clear that we have to act soon to break the deadly cycle of gang 
violence. We must work together with partners from every segment of our 
community and with resources from all levels of government--local, 
state and federal. The only way to achieve results is through a 
comprehensive approach that balances prevention and punishment.
    Today's hearing is very important because there are a number of 
proposals that are being considered to address the devastating problem 
of gangs. Some, in my opinion, are overly focused on increased 
penalties, but will not address the root problems that allow gangs to 
persist in their deadly grip on our communities.
    One proposal, written by Chairman Scott, is the Youth Promise Act. 
I was pleased to co-sponsor this bill last session and look forward to 
co-sponsoring it when it's reintroduced this week. This proposal 
addresses some of the root causes of gangs and it relies on evidence-
based solutions that have been proven to work. This bill implements the 
advice heard in our Crime Subcommittee over the last session from over 
50 crime policy experts, including researchers, practitioners analysts, 
and law enforcement officials from across the political spectrum 
concerning evidence- and research-based strategies to reduce gang 
violence and crime. These strategies are targeted to young people who 
are at-risk of becoming involved, or are already involved in, gangs or 
the criminal justice system to redirect them toward productive and law-
abiding alternatives.
    Let me just say here that I feel very strongly that one of the ways 
Congress can most effectively fight crime is NOT to pass more 
legislation that adds more penalties on top of the very tough penalties 
that are already on the books. I believe the most effective thing that 
Congress can do is to increase funding for programs that will provide 
front line law enforcement and social service providers with the 
resources they need to actually prevent crime, especially as it relates 
to juvenile justice programs.
    One aspect of reducing youth violence is the imposition of 
mandatory minimum sentences that take discretion away from judges and 
force the imposition of sentences that don't fit the crime. Instead of 
devoting federal prosecutorial resources to the major drug traffickers 
who prey on vulnerable youngsters, use them as pawns and increase their 
access to guns, precious resources have been spent on the low-level 
offenders and non-violent offenders. This will be one of my priorities 
this session, and I'm looking forward to working with our Chairman to 
address the issue of mandatory minimum sentences that 
disproportionately impact minorities. I will very soon be introducing 
the Major Drug Trafficking Prosecution Act of 2009, which will refocus 
federal prosecutorial resources on major drug traffickers instead of 
low-level offenders and non-violent offenders. This bill will be very 
similar to legislation I introduced in the 107th Congress, but I am 
hopeful that we now have a fresh opportunity to correct one critical 
aspect of failed criminal justice policies. At one time, there were 
those who supported the imposition of mandatory minimum sentences based 
on a belief that such measures would help fight the war on drugs. It 
was not necessarily clear at that time what impact such decisions would 
have on minority communities. However, data today makes it very clear 
that not only was the impact devastating on communities of color, but 
that the policy was not effective.
    I'm looking forward to the testimony from all of our witnesses 
today and learning about your recommendations to fight youth violence 
in our communities--about what works and what doesn't work.

                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
